HHS/OIG-Audit--"Review of Outpatient Psychiatric Services Provided by Saint Luke's Roosevelt Hospital for Calendar Year Ended December 31, 1997, (A-02-99-01016)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by Saint Luke's-Roosevelt Hospital for Calendar Year Ended December
31, 1997," (A-02-99-01016)
June 21, 2000
Complete
Text of Report is available in PDF format (1.85 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report estimates, based on a statistical sample, that at least $1,129,740 in outpatient psychiatric services
claimed by the Saint Luke's-Roosevelt Hospital did not meet Medicare reimbursement criteria. Specifically, charges for
outpatient psychiatric services lacked sufficient patient treatment plans, sufficient medical record documentation, and/or
were not reasonable and necessary. We also noted unallowable charges for noncovered items totaling $46,019 on the Hospital's
Calendar Year 1997 cost report. In addition to financial adjustments, we recommended that the Hospital strengthen its procedures
to ensure that charges for outpatient psychiatric services are reasonable and necessary and are properly documented in
accordance with Medicare regulations and guidelines. We also recommended that the Hospital develop procedures to report
noncovered services as nonreimbursable cost centers on its Medicare cost reports.